No.

IN THE
SUPREME COURT OF THE UNITED STATES

Vi

— PETITIONER

(Your Name)
VS.

CtiP£> ry,

Uyi,|..^VfoL)L- RESPONDENT(S)
PROOF OF SERVICE

I .C/&4/U ifcV V( \aiAmI
, do swear or declare that on this date,
,
, as required by Supreme Court Rule 29 I have
Smi-.
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

an

®y? Co

lo

\

I declare under penalty of perjury that the foregoing is true and correct. .
Executed on

(Signature)

CERTIFICATE OF SERVICE
I, the undersigned, hereby certifies that on the 18th day of July 2021, a true and
correct copy of the above and foregoing Petition for Writ of Certiorari was furnished by
the United States Mail to^
Dr. Thomas Croy, MD
310 Villa R.D. Suit 108
Newberg, Yamhill County
Oregon 97132
Gregg Boughton
414 N. Meridian St.
Newberg, Yamhill County, Oregon 97132
Chris Casey
414 N. Meridian St.
Newberg, Yamhill County, Oregon 97132
John Bates
414 N. Meridian St.
Newberg, Yamhill County, Oregon 97132
Ian Sanders
414 N. Meridian St.
Newberg, Yamhill County, Oregon 97132
Gabe Haberly
414 N. Meridian St.
Newberg, Yamhill County, Oregon 97132
Craig Taylor
414 N. Meridian St.
Newberg, Yamhill County, Oregon 97132
Dave Johnstone
414 N. Meridian St.
Newberg, Yamhill County, Oregon 97132

17 | Petition for Writ of Certiorari

Mark Pothoff
414 N. Meridian St.
Newberg, Yamhill County, Oregon 97132
Sarah Taylor
414 N. Meridian St.
Newberg, Yamhill County, Oregon 97132

CERTIFICATE OF SERVICE
I, the undersigned, hereby certifies that on the 18th day of July 2021, a true and
correct copy of the above and foregoing Petition for Writ of Certiorari was furnished by
the United States Mail to: Ms. Sheri C. Browning
Brisbee & Stockton LLC
139 NE Lincoln St.
P.O. Box 567
Hillsboro, Oregon 97123
Attorney; Defendant PROVIDENCE MEDICAL GROUP
A copy to; Janet M. Schroer
Hart Wagner, LLP
1000 SW Broadway, Twentieth Floor
Portland, OR 97205-3072
Attorney; Defendant Croy
A copy to; Troy Garret Sexton
Motschendacher and Blattner LLP
117 SW Taylor St.
Suite 200
Portland, OR 97204-3029
Attorney; Defendant Dominik Fix-Gonzalez
A copy to; Martin W. Jaqua

18 | Petition for Writ of Certiorari

Attorney at Law
P.O. Box 83005.
Portland, OR 97283
Attorney; GFU defendants

Samuel W. Wani
2226 Eastlake Ave East, #272
Seattle Washington 98102
Samuelwani@eagles.ewu.edu

19 | Petition for Writ of Certiorari

CERTIFICATE OF COMPLIANCE
I, Mr. Samuel W Wani, Petitioner, proceeding pro se, hereby certifies that the
foregoing Petition for Writ of Certiorari complied with the Rules of the Supreme Court
of the United States, whereas the same is submitted on 81/2 by 11-inch paper, is in
Century Font, 12-point-type with 2-point leading between lines, and contains a total a
total of 4,707 words per Microsoft Word 2016.

Samuel W. Wani
2226 Eastlake Ave East, #272
Seattle Washington 98102
Samuelwani@eagles.ewu.edu

161 Petition for Writ of Certiorari

